<html>
<title> - LAND IN FRANNIE, WYOMING; EDWARD H. McDANIEL AMERICAN LEGION POST NO. 22; LAND IN WASHOE CO., NEVADA; LAND TO THE UNIVERSITY OF NEVADA AT LAS VEGAS; PARCEL OF PROPERTY TO BEAVER CO., UTAH; AND AMEND THE RAILROAD RIGHT-OF-WAY CONVEYANCE VALIDATION ACT</title>
<body><pre>[Senate Hearing 108-575]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-575

             LAND IN FRANNIE, WYOMING; EDWARD H. McDANIEL 
 AMERICAN LEGION POST NO. 22; LAND IN WASHOE CO., NEVADA; LAND TO THE 
 UNIVERSITY OF NEVADA AT LAS VEGAS; PARCEL OF PROPERTY TO BEAVER CO., 
  UTAH; AND AMEND THE RAILROAD RIGHT-OF-WAY CONVEYANCE VALIDATION ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on


                           S. 155                                S. 2085

                           S. 1521                               S. 2285

                           S. 1826                               H.R. 1658



                               __________

                              MAY 5, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-432                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                   Scott Miller, Democractic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Anderson, Bob, Deputy Assistant Director, Minerals, Realty and 
  Resource Protection, Bureau of Land Management.................     7
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Gallagher, John F., Ph.D., Vice President for Development, 
  University of Nevada, and Executive Director, UNLV Foundation, 
  Las Vegas, NV..................................................    16
Hatch, Hon. Orrin G., U.S. Senator from Utah.....................     3
Reid, Hon. Harry, U.S. Senator from Nevada.......................     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2
Wells, Dr. Stephen G., President, Desert Research Institute, 
  Reno, NV.......................................................    14
Whitney, Mark, County Commissioner, Beaver County, UT............    13

                                APPENDIX

Responses to additional questions................................    23

 
 LAND IN FRANNIE, WYOMING; EDWARD H. McDANIEL AMERICAN LEGION POST NO. 
22; LAND IN WASHOE CO., NEVADA; LAND TO THE UNIVERSITY OF NEVADA AT LAS 
 VEGAS; PARCEL OF PROPERTY TO BEAVER CO., UTAH; AND AMEND THE RAILROAD 
                 RIGHT-OF-WAY CONVEYANCE VALIDATION ACT

                              ----------                              


                         WEDNESDAY, MAY 5, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon everyone. The Subcommittee on 
Public Lands and Forests of the full Committee of Energy and 
Natural Resources will come to order.
    This is a legislative hearing on S. 155, S. 1521, S. 1826, 
S. 2085, S. 2285, and H.R. 1658.
    And in wishing you a good afternoon, let me also suggest a 
happy Cinco de Mayo. I would like to thank all of you for 
coming today. I would especially like to recognize Senator 
Hatch who is here to make a statement about S. 2285 and Senator 
Harry Reid who is here to make a statement on three bills 
affecting the State of Nevada. And they will introduce other 
witnesses from their States.
    Before I turn to our primary witnesses, I will also yield 
Senator Craig Thomas. But I want to welcome to the committee 
Bob Anderson, Deputy Assistant Director of the Bureau of Land 
Management, and finally I want to thank our witnesses for 
taking time to come to Washington to testify. I know that you 
have traveled a long distance and your effort will help us 
better understand the need for the legislation that is before 
us.
    We will be hearing the six bills that I mentioned today 
dealing with the conveyance issues. S. 155, introduced by 
Senator Enzi, to convey to the town of Frannie, Wyoming certain 
land withdrawn by the Commissioner of Reclamation. That is the 
issue you will talk about, Senator. Is that correct?
    Senator Thomas. Yes, sir.
    Senator Craig. We have three bills introduced by Senator 
Reid, as I mentioned. Senator, you are going to have to not 
only correctly pronounce the name of the town in Nevada. I 
think it is Pahrump, is it?
    Senator Reid. Perfect.
    Senator Craig. How about that. I guess it is because I live 
in close proximity to the State of Nevada.
    Then I am going to offer you a much larger challenge. You 
are going to have to tell me the origin of the community of 
Pahrump.
    S. 1826 would convey land in Washoe County, Nevada, to the 
Board of Regents of the State University System.
    And your third bill, S. 2085, would modify the requirements 
concerning land already conveyed to the Research Foundation at 
the University of Nevada, Las Vegas.
    Senator Hatch has a bill on the agenda, S. 2285, which 
would convey a parcel of property in Beaver County, Utah.
    And the final bill today, H.R. 1658, would validate and 
clear title to existing conveyances of certain lands in the 
State of California.
    So with that, first of all, let me turn to my colleague, a 
member of the committee, Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Just very briefly, S. 155 is a bill that has been out here 
for almost 2 years or a year and a half. I do not think there 
is controversy, but I did just want to mention that it directs 
the Secretary to convey to the town of Frannie, Wyoming certain 
lands, reserving oil rights and so on.
    Interestingly, Frannie is a town of 209 people. It wishes 
to gain ownership of the land described here. It is about an 
acre I think and they have been using it as a park, and for 
some reason or other, it seems to be difficult to get ownership 
changed. So the main concern, of course, the citizens of this 
town want to ensure that they continue to have the use of this 
park.
    I have a letter to submit for the record. 80 out of 209 
citizens have signed the letter. So there is a good deal of 
interest there.
    [The letter follows:]

                                            Town of Frannie
                                       Frannie, WY, August 4, 2003.
Hon. Craig Thomas,
100 East B Street, Suite 2201, Casper, WY.
Re: S. 155

    Dear Senator Thomas: Senator Mike Enzi has been assisting the Town 
of Frannie with Senate File 155, a bill to convey to the Town of 
Frannie certain land withdrawn by the Commissioner of Reclamation. The 
bill has been in the Committee on Energy and Natural Resources since 
January 14th, 2003.
    We understand you serve as a member of the Energy and Natural 
Resources committee, and are writing to ask your help in getting the 
bill out of committee and passed.
    As you know, Frannie is a small town (as most Wyoming towns are!) 
of 200 citizens. Passage of this bill will give the Town of Frannie 
ownership of land adjacent to property the town owns and on which sits 
our town hall, town park, and library. Assurance of ownership will 
enhance the town's ability to store and protect public property and 
equipment. Part of the land included in this bill is now leased to us 
and used for a Centennial Park, which we want to continue as a public 
park. Additionally, the Frannie Elementary borders the north side of 
this block, and transfer of ownership will protect these public sites 
from commercial development.
    Attached is a signature page of townspeople who support this bill.*
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    Our town clerk and council have been working on this transfer since 
April 1999; we would greatly appreciate your assistance in helping make 
this project a reality.
            Sincerely,
                                   Darren Wagner, Mayor,
                                   David Tabor, Council Member,
                                   John Ellis, Council Member,
                                   Muriam A. Roberts, Council Member,
                                   Jerry Dart, Council Member.

    Senator Thomas. I appreciate your putting it on the list. 
My friend, Senator Enzi, has introduced this bill and I 
certainly urge us to move it forward. Thank you.
    Senator Craig. Thank you very much.
    Let me first turn to our colleague from Utah, Senator 
Hatch.

        STATEMENT OF HON. ORRIN G. HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Well, thank you, Senator, and I appreciate 
the work that you do on this committee. It means a lot to us in 
Utah and elsewhere throughout the West. So I want to thank you 
for holding this hearing today on important lands-related bills 
and for allowing the consideration of my bill to convey a 
parcel of land to Beaver County, Utah for its administration as 
a county park.
    Today it is my distinct pleasure to introduce to the 
committee two Beaver County Commissioners, Mark Whitney and Pat 
Yardley. They are sitting right back here. I appreciate Mark 
and Pat for traveling to attend this hearing. Commissioner Mark 
Whitney will provide testimony regarding the importance of this 
bill. Mark Whitney has served as a commissioner for 5 years 
now. He lives in Willford, Utah and has used the Minersville 
recreation area all of his life. He is an avid outdoorsman and 
has worked on this issue from the beginning. So, Mark, I 
welcome you and thank you for making the trip to testify before 
this committee regarding the importance of this bill.
    I know Commissioner Whitney will do a good job explaining 
why this bill is so important and necessary, but I would just 
like to make a few brief points if I may.
    I introduced S. 2285, the Beaver County Land Conveyance 
Act, because it is necessary. This bill is necessary to help 
Beaver County to be able to afford to administer the land as a 
park, and I would point out that the State of Utah administered 
the area as a State park for more than 40 years. Just as 
importantly, this bill is necessary to solve the dilemma that 
the Bureau of Land Management finds itself in today with regard 
to this land.
    Very simply, this bill would allow Beaver County to obtain 
and maintain, without restrictions, the former Minersville 
State Park. In sum, this bill is required to allow county 
officials to sell a small portion of this land, if necessary, 
in order to offset funding needed to maintain and operate the 
park.
    I will leave it to Commissioner Whitney to give the 
testimony about the history of the park. I just want to point 
out that as county officials stated during their negotiations, 
in order for Beaver County to afford the management of day-to-
day operations of the would-be county park, they might need to 
be able to sell a small portion of the property to pay for park 
operations. However, after park management responsibility was 
transferred to the county, the BLM pointed out that the 
property had not yet been acquired through the Recreation and 
Public Purposes Act process, which would restrict the county's 
plan.
    I do not believe that letting management of the park revert 
to the BLM is a viable option either. This park now features 
more than $1 million worth of park facilities constructed by 
the State. The intensive day-to-day management of this park can 
be best accomplished by our local officials. If Beaver County 
acquires the property, it will continue to make this park an 
excellent recreational refuge, a superb fishery, and a great 
place to visit. Beaver County will be able to provide a clean 
and safe park enjoyed by all who visit.
    Now, Mr. Chairman, that is why I introduced this 
legislation that would convey the Minersville park land to 
Beaver County. And I appreciate having my fellow Utah 
Commissioner, Mark Whitney, testify about this bill and I thank 
the committee for the opportunity to address this issue today. 
And I urge you and the rest of my colleagues to support this 
legislation. It would be very much appreciated by all of us in 
Utah.
    Senator Craig. Well, Mr. Chairman, thank you very much, and 
we will look forward to the testimony of Commissioner Whitney.
    Now let me turn to Senator Reid.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Thank you very much, Mr. Chairman.
    I would say to Senator Hatch, before he leaves, I went to 
school, as he knows, for a couple of years in southern Utah at 
Cedar City. I have never been to Minersville that I remember, 
but I remember fighting somebody from Minersville.
    [Laughter.]
    Senator Reid. But I only remember the names of the people I 
beat, and so I do not remember his name but I know he was from 
Minersville. That is the first time I heard that name since 
that fight.
    Mr. Chairman, thank you very much for holding this hearing. 
These three bills are all important for Nevada. Senator Ensign 
cosponsors all three of these.
    As we know, 87 percent of the land in Nevada is federally 
controlled and so we need most anything we do in Nevada to get 
the Federal Government's approval before we can do it, even 
simple community actions as indicated with the town in Wyoming 
getting an acre of land transferred. As the chair knows, we 
have had trouble getting areas that have been used for decades 
for cemeteries. We have to come to the Federal Government to 
get help on that. So we need your help on these three items. 
They are very important.
    Pahrump, Nevada. The bill will make it possible for the 
American Legion to build a very, very nice center there, a 
veterans center and memorial garden. It will benefit the whole 
community. We have a very, very rapidly growing veterans 
population. Pahrump is about 55 miles from Las Vegas. It has 
become one of the bedroom communities for Las Vegas. They are 
talking about getting a new VA clinic there and lots of things, 
lots of veterans there, and this would be a tremendous help for 
us.
    The other two bills make small changes that will help 
Nevada develop and support world-class research institutions. I 
am not going to read in detail the testimony, but if there are 
any questions the committee has, I and my staff would be happy 
to respond.
    I would ask the full content of my statement be made part 
of the record.
    Senator Craig. Without objection, that is what will happen, 
Senator.
    Senator Reid. I would say to the chair that Dr. John 
Gallagher, vice president for development at the University of 
Nevada, Las Vegas, and executive director of the Foundation, 
will testify on behalf of the bill that we spoke about earlier.
    Dr. Stephen Wells, president of the Desert Research 
Institute, will also testify. We are very proud of the work 
that UNLV does. They have developed tremendous programs, as 
some of you may know. UNLV now is ranked No. 1 in the country 
for the hotel management school. It has just passed Cornell. It 
is a wonderful institution, and we are doing so much better in 
so many different areas. The bill that we need help with at 
UNLV will allow us to become an even better scientific 
institution.
    The Desert Research Institute is a unique institution. It 
has numerous Ph.D.'s. Only 10 percent of their resources come 
from the State of Nevada. All the rest are Federal grants based 
on their academic excellence. There is no better example of 
that than the President of the university who is a renowned 
scientist in his own right.
    So thank you very much for listening to me and giving the 
opportunity to Dr. Wells and Dr. Gallagher to testify.
    [The prepared statements of Senator Reid follows:]

    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada
                               on s. 1826

    Thank you, Mr. Chairman, for holding this hearing to discuss the 
conveyance of an important tract of land in Washoe County, Nevada, from 
the Bureau of Land Management to the University and Community College 
System of Nevada.
    The University of Nevada owns 467 acres of public land located 
north of downtown Reno. In the early 1970s, the land was patented to 
the university pursuant to the Recreation and Public Purposes Act. Now 
known as the Dandini Research Park, it is the home of the Truckee 
Meadows Community College and the Desert Research Institute's Northern 
Nevada Science Center.
    In just over 25 years, the Desert Research Institute has earned a 
well-deserved reputation as a world leader in atmospheric, hydrologic, 
geologic, and ecosystem sciences. Its researchers take a unique 
interdisciplinary approach to natural resource management, economic 
diversification, and science-based education. As we in the West 
continue to grapple with extended drought, it is especially vital that 
the Desert Research Institute continue to provide policy makers with 
the essential scientific information they need to manage scarce water 
resources in arid lands.
    Having grown out of its original facility, the Desert Research 
Institute needs to expand its Northern Nevada Science Center. A private 
developer has agreed to build and finance the expansion and then lease 
it back to DRI.
    There is only one obstacle to this innovative approach to financing 
the expansion: The terms of the patents and the restrictions imposed by 
the Recreation and Public Purposes Act do not allow for such an 
arrangement.
    To rectify this problem, this bill directs the Secretary of the 
Interior to convey this property from the Bureau of Land Management to 
the University and Community College System of Nevada. Because of the 
significant public benefit provided by the Center, we ask that the land 
be conveyed for free, but that the University cover the costs of the 
transaction.
    The Northern Nevada Science Center is an exceptional asset to the 
scientific and educational community in the Truckee Meadows. The Center 
serves not only the citizens of Washoe County, but the needs of all 
Nevadans and the western United States as well. It deserves the 
opportunity to grow and prosper with the northern Nevada community--one 
of the fastest-growing regions in the Nation.
    Again, Mr. Chairman, I wish to express my appreciation for this 
hearing to examine this important bill for the people of Nevada.

                                 ______
                                 
                               on s. 2085

    Thank you, Mr. Chairman, for holding this hearing on my bill to 
promote development of the University of Nevada at Las Vegas Research 
and Technology Park. I am pleased to note that my friend from Nevada, 
Senator Ensign, is a cosponsor of this bill.
    Mr. Chairman, we in Nevada have been working hard to establish the 
UNLV Research Foundation's Research and Technology Park in the greater 
Las Vegas area. When completed, the Park will provide a focus for high-
tech education and research, and create entrepreneurial opportunities 
for cutting-edge companies. It will fuel UNLV research endeavors in 
public/private collaborations and drive much-needed diversification of 
the Southern Nevada economy.
    Only one obstacle is blocking the fulfillment of this vision.
    To complete build-out, the Research Foundation must be able to 
secure mortgages on the fair market value of the property. And to 
attract private financing to develop a successful research park, the 
Foundation needs a revenue stream to invest in UNLV supported research, 
and to provide resources for sustaining the park. Current law prohibits 
the Foundation from reinvesting the revenues generated from the 
proceeds of leases of the property.
    The Southern Nevada Public Land Management Act of 1998 conveyed 
federal land to the Clark County Department of Aviation. Subsequently, 
through provisions in the Clark County Conservation of Public Land and 
Natural Resources Act of 2002, Congress transferred 115 acres of this 
land to the UNLV Research Foundation for construction of the research 
and technology park.
    The bill you are considering today simply amends the Clark County 
Conservation of Public Land and Natural Resources Act of 2002 to allow 
the proceeds of the Foundation's research park leases to be used to 
pursue the Foundation's research mission.
    Having the ability to invest the full proceeds of any lease of the 
land would provide funds for park infrastructure development, Research 
Foundation buildings and incubators, and a long-term revenue source to 
further enhance research at UNLV.
    Thank you, Mr. Chairman, for holding this hearing. I look forward 
to working with you to enact this important legislation, and I 
appreciate your time.

                               on s. 1521

    Mr. Chairman, thank you for holding this hearing to discuss the 
conveyance of a small parcel of land to American Legion Post #22 in 
Pahrump, Nevada.
    This bill is a simple one.
    It would transfer approximately five acres of land managed by the 
Bureau of Land Management to the American Legion for the construction 
of a new community center.
    The American Legion in Pahrump--where the veterans population has 
tripled in the last decade--has tried for over seven years to acquire a 
suitable tract of land for a new veterans facility.
    Many years ago the Legion started a pledge campaign and raised 
money for the acquisition of a suitable property.
    After this effort began, the parcel of land they sought to buy was 
removed from consideration for disposal by the BLM.
    Unfortunately, other tracts of land that might represent 
alternative sites in Pahrump are not suitable.
    So today I come before you to speak on behalf of this legislation 
that would provide the land needed by American Legion Post #22 to move 
forward with their planned construction of a post building, a veterans 
garden, and a memorial park.
    In this time of war and constant vigilance, Mr. Chairman, I can't 
think of a more fitting thing for this body to do.
    Through this legislation we can enable our brave veterans in their 
quest to build a space for remembering those who have given, as 
President Lincoln once called it, ``the last full measure of 
devotion,'' to our nation.
    The new American Legion hall in Pahrump will also be a place where 
other community organizations from Nye County--including the Veterans 
of Foreign Wars and a wide range of youth groups--can hold 
celebrations, convene meetings, and host other important community 
activities at no cost.
    And to diminish any strain that this conveyance might put on our 
federal agencies, the American Legion will pay for all costs associated 
with this land transfer.
    Mr. Chairman and distinguished committee members, thank you for 
your time and attention.
    I hope that we can work together to move forward with this land 
conveyance that will benefit the people of Nevada.

    Senator Craig. Senator Reid, thank you very much, and we 
will look forward to their testimony. But before you leave, you 
have not withstood the test of the chairman. Let us see how 
good your staff research is.
    Senator Reid. Always when you have the ``pah,'' that is 
water. So we know it is water. And the ``rump'' is rock. So it 
is ``water rock.'' Pahrump is a place where----
    Senator Craig. Is it Indian?
    Senator Reid. Yes.
    Pahrump is a place where we for 40 years grew cotton there, 
lots and lots of water, but we ran into a problem with 
endangered species and that slowed down the cotton farming. Now 
there is still some ranching there, but it is mainly a 
community that serves Las Vegas. It is in a different county 
than Las Vegas, but even the community college system in Clark 
County, Las Vegas is going to build a community college there.
    So I appreciate very much attention and interest.
    Senator Craig. Thank you. You have withstood the test, and 
we do appreciate it.
    Senator Reid. We have lot of towns named ``pah'' in Nevada.
    Senator Craig. And that is Indian for rock.
    Senator Reid. Water, and ``rump'' is the rock.
    Now, I do know what the water is but sometimes I get the 
other part of it mixed up because there are so many towns in 
Nevada with water in them, even though we do not have much 
water.
    [Laughter.]
    Senator Craig. I know that.
    Well, now let me call Bob Anderson, Deputy Assistant 
Director for Minerals, Realty and Resource Protection, Bureau 
of Land Management, forward. Bob, welcome before the committee, 
and I know you are going to testify on a variety of the bills 
that are before us. Please proceed.

STATEMENT OF BOB ANDERSON, DEPUTY ASSISTANT DIRECTOR, MINERALS, 
                REALTY AND RESOURCE PROTECTION, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Anderson. Thank you, Mr. Chairman, and thanks for 
inviting me to testify regarding a number of land conveyance 
bills of interest to the Bureau of Land Management, BLM. I will 
briefly summarize my written statement as follows.
    H.R. 1658 is a private bill which amends the Railroad 
Right-of-Way Conveyance Validation Act of 1994, Public Law 103-
2. That act validated the conveyances of 50 small tracts of 
land in Nevada and San Joaquin Counties, California.
    The bill before us today amends that act by adding two 
additional small parcels in San Joaquin County at the northern 
end of the city of Stockton. We see no conflict in clearing 
title for these lands through this legislation and, therefore, 
have no objection to H.R. 1658.
    S. 2285 proposes to convey approximately 200 acres 
surrounding the Minersville Reservoir to Beaver County, Utah. 
The administration supports the conveyance, but would suggest a 
few modifications to the legislation.
    The legislation authorizes Beaver County to sell at fair 
market value portions of the property. Those proceeds may be 
used only for the maintenance and further development of the 
public recreation facilities on the site.
    We support this proposal as a creative solution to a 
difficult problem. However, we recommend the elimination of the 
reversionary clause in section 1(c) to avert a situation where 
the BLM would be responsible for managing a small local park or 
to abandon its use as a park, either of which it is ill-
prepared to do. We believe the requirements of section 1(b), 
limiting the use of sale proceeds specifically for the 
operation and maintenance of the park, are adequate to protect 
the interests of the public.
    We would also like the opportunity to work with the 
committee on an appropriate map of the area to be conveyed.
    The administration has a few comments with S. 1521 that we 
would like to work with you on. The main concern is that the 
tract identified for conveyance in S. 1521 has not been 
identified for disposal by BLM. The BLM would like to work with 
the committee and the American Legion Post No. 22 to identify 
an alternate site within the over 9,300 acres of public lands 
in the area currently identified as suitable for disposal.
    The legislation directs the Secretary of the Interior to 
transfer the lands identified within 120 days. This requirement 
results in time concerns relative to BLM's ability to fulfill 
certain requirements associated with the land conveyance, as 
well as our responsibility under the National Environmental 
Policy Act and other required clearances.
    So we would like to take this opportunity to work with you 
and American Legion Post No. 22 on these concerns.
    The BLM originally patented the lands referenced in S. 1826 
to the Board of Regents of the University and Community College 
System of Nevada in 1972 and 1974. Subsequent legislation, 
Public Law 99-358, in 1986 provided for the development of a 
research park on these lands. S. 1826 would transfer the 
remaining right, title, and interest of the United States in 
these lands to the Board of Regents without further 
restrictions.
    The administration supports S. 1826 but would like to 
clarify what constitutes ``net proceeds'' in section 2(c)(2) of 
the bill.
    The administration does not support S. 2085, which would 
amend the Clark County Conservation of Public Land and Natural 
Resources Act of 2002. The Clark County Act gives the 
Department of Aviation the discretion to convey, without 
consideration, 115 acres identified for use by the University 
of Nevada at the Las Vegas Research Foundation. Currently if 
the foundation chooses to sell or lease portions of the 115 
acres that it does not use for the research park, any proceeds 
are deposited into accounts following the general guidelines 
established in the Clark County Act. That is, 85 percent would 
go to the special account established for the Southern Nevada 
Public Lands Management Act and 5 percent would go to the State 
of Nevada for general education. The remaining 10 percent would 
be available for use by the foundation.
    S. 2085 amends the Clark County Act by allowing 100 percent 
of the proceeds from the sale or lease of lands by the 
foundation to go directly to the foundation. We believe that 
proceeds from any sale or lease of lands by the foundation 
under the Clark County Act should be distributed as established 
in current law, which I just mentioned a few seconds ago.
    Finally, the Bureau of Reclamation has submitted a 
statement for the record on S. 155, a bill to convey to the 
town of Frannie, Wyoming certain lands withdrawn by the 
Commissioner of the Bureau of Reclamation. We ask that this 
statement be included in the hearing record.
    Senator Craig. Without objection.
    [The prepared statement of the Bureau of Reclamation 
follows:]

  Prepared Statement of the Bureau of Reclamation, Department of the 
                          Interior, on S. 155

    This statement presents the views of the Department of the Interior 
on S. 155, a bill to require the Secretary of the Interior to convey 
certain land withdrawn by the Commissioner of Reclamation consisting of 
approximately 37,500 square feet located in the N\1/2\ of block 26, 
T.58 N., R.97 W., to the Town of Frannie, Wyoming. This land was 
originally withdrawn from the public domain on April 19, 1920, for 
reclamation purposes and is managed by the Bureau of Reclamation. 
Reclamation has concluded that it does not have any continuing project 
need for the land or any vested interest in or ownership of any 
appurtenances on the land. The Bureau of Land Management (BLM) 
conducted a survey of the land and determined that the land is no 
longer suitable for return to the public domain and management under 
the public land and mining laws.
    The Town of Frannie has title to the S\1/2\ of Block 26, the 
adjacent parcel, which is where the Town Hall is located. In addition, 
pursuant to a Special Use Permit issued by the Bureau of Reclamation in 
1990, the Town uses the NE\1/4\ of Block 26 for the Wyoming Centennial 
Garden.'' The Deaver Irrigation District (``Deaver'') managed this land 
for the Bureau of Reclamation. Previously, Deaver authorized the 
relocation of a building on the NW\1/4\ of the Block, which was 
subsequently conveyed to the Town of Frannie and is now being used as a 
meeting hall by the Town.
    S. 155 would direct the Secretary of the Interior to convey, 
without consideration, all right, title, and interest of the United 
States in and to the parcel of land to the Town of Frannie. The bill 
would also revoke the Special Use Permit with the Town of Frannie for 
the Centennial Garden City Park and Secretarial Orders issued by the 
Commissioner of Reclamation which withdrew the land for the Shoshone 
Project in 1913 and the Frannie Townsite Reservation in 1920.
    It is customary for the Department to seek fair market value for 
land proposed for transfer. However, in this case, given that the 
parcel is less than one acre, its value is minimal as compared to the 
costs associated with the process of selling it, and the Town currently 
uses the land for the benefit of the public, the Department has 
determined that it can support S. 155, provided that the bill is 
modified to include language that more clearly describes the means by 
which the Secretary would convey this property. Similar legislation was 
passed in 1994 by Title VI of P.L. 103-434, directing the Secretary to 
convey certain lands which are adjacent to the lands proposed for 
transfer under S. 155, by quitclaim deed, to the Big Horn County School 
District. The Department recommends that the words ``by quitclaim 
deed'' be added in. subsection (a) after ``the Secretary of the 
Interior shall convey,'' which would then read ``the Secretary of the 
Interior shall convey, by quitclaim deed, without consideration, all 
right, title, and interest of the United States in and to the parcel of 
land described in subsection (b) to the Town of Frannie, Wyoming.''
    Thank you for the opportunity to detail the position of the 
Department of the Interior on S. 155.

    Mr. Anderson. Thank you for the opportunity to present this 
testimony today, and I will be happy to answer your questions.
    [The prepared statement of Mr. Anderson follows:]

    Prepared Statement of Bob Anderson, Deputy Assistant Director, 
Minerals, Realty and Resource Protection, Bureau of Land Management, on 
           H.R. 1658, S. 2285, S. 1521, S. 1826, and S. 2085

    Thank you for inviting me to testify regarding a number of land 
conveyance bills of interest to the Bureau of Land Management (BLM).

                               H.R. 1658

    H.R. 1658 is a private bill which amends the Railroad Right-of-Way 
Conveyance Validation Act. The administration has no objection to H.R. 
1658.
    In 1994, the Congress passed H.R. 1183, Private Law 103-2. The Act 
validated the conveyances of 50 small tracts of land in Nevada County 
and San Joaquin County, California. The lands involved were originally 
part of the right-of-way grant of the United States to the Central 
Pacific Railroad by an 1862 Act of Congress. The Southern Pacific 
Railroad (the successor to Central Pacific) appears to have made 
conveyances of small tracts of land in some of these cases, and in 
others, adjacent landowners have made inadvertent encroachments. Under 
the original Act of 1862, a Federal reversionary interest existed if 
these rights-of-way were abandoned by the railroad. The 1994 Act was 
necessary to remove any cloud on the title of these small landowners.
    The bill before us today amends the underlying 1994 Act by adding 
two additional small parcels in San Joaquin County, California. The 
parcels in question are at the northern end of the city of Stockton, 
California. According to the master title plat, maintained by the BLM, 
these parcels have been in private ownership for nearly a century. We 
see no conflict in clearing title for these lands through this 
legislation. As with the underlying Act, the mineral estate of these 
lands will continue to be reserved to the Federal government, and the 
lands will continue to be unavailable to all forms of mineral entry.

                                S. 2285

    S. 2285 proposes to convey approximately 200 acres surrounding the 
Minersville Reservoir to Beaver County, Utah. The Administration 
supports the conveyance, but would like to recommend a few 
modifications to the legislation.
    In 1963, the BLM first granted a patent to Beaver County, Utah, for 
the lands that are now part of Minersville State Park pursuant to the 
Recreation & Public Purposes Act (R&PP) (43 U.S.C. 869 et seq.). In 
1964, title was transferred to the State of Utah Division of Parks and 
Recreation. Over the years the State made substantial investments in 
the park facilities including campgrounds, restrooms, and an entrance 
station. In 2002, the State of Utah moved to transfer title to Beaver 
County as part of cost cutting efforts.
    However, because the State did not have authority under the R&PP 
Act to transfer title, such an action was not possible. Beaver County 
has indicated that it will not accept a transfer of the lands because 
of the restrictions associated with the R&PP Act. Specifically, the 
reversionary clause prevents the re-sale of lands transferred under the 
R&PP Act.
    Beaver County, however, is willing to take over the park if it has 
an opportunity to create a funding source. The County proposes to sell 
some of the undeveloped lands within the park for cabin sites and use 
the revenue generated from the sales to operate and maintain the park 
for the benefit of the people of Beaver County and visitors. Under the 
provisions of the R&PP Act such sales would result in a reversion to 
the BLM. The BLM does not object to this proposal because this type of 
small, local park is most appropriately operated and maintained by a 
local government.
    S. 2285 proposes to transfer all right, title and interest of the 
United States for the approximately 200 acres to Beaver County. Beaver 
County would then be authorized by the legislation to sell, at fair 
market value, portions of that property. The legislation further 
directs that those proceeds may be used only for the maintenance and 
further development of the public recreation facilities on the site.
    Normally we would require payment of fair market value for any 
interest in lands conveyed without the requirement that they be used 
for a public purpose. However, we recognize the unique circumstances 
here, including the historical use of the area as a park, and support 
this proposal as a creative solution to a difficult problem. However, 
we recommend the elimination of the reversionary clause in section 
1(c), which provides for the reversion of the site to the United States 
if the provisions of the Act are not complied with, and the elimination 
of a subsequent requirement that Beaver County repay to the United 
States any payments received from sales of land. We recommend the 
elimination of the reversionary clause to avert a situation where the 
BLM would be responsible for managing a small local park, or abandoning 
its use as a park, either of which we are ill prepared to do. We 
believe the requirements of section 1(b), limiting the use of sale 
proceeds specifically for the operation and maintenance of the park, 
are adequate to protect the interests of the Federal government.
    Finally, we would like the opportunity to work with the Committee 
on an appropriate map of the area to be conveyed.

                           Nevada Lands Bills

    Let me now turn to three Nevada lands bills, S. 1521, the ``Edward 
H. McDaniel American Legion Post No. 22 Land Conveyance Act;'' S. 1826, 
the ``Dandini Research Park Conveyance Act;'' and S. 2085, the 
``University of Nevada at Las Vegas Research Foundation Reinvestment 
Act.'' These bills provide for the conveyance of public lands to 
various entities. The Administration supports the goals of S. 1521 and 
S. 1826, but would like to work with the Committee to address certain 
concerns and clarify technical issues discussed more fully below. The 
Administration does not support S. 2085.

                                S. 1521

    The Administration has a number of concerns with S. 1521 as 
introduced. First, the tract to be conveyed under S. 1521 has not been 
identified for disposal under the current land use plan, which was 
adopted in 1998. The BLM would like to work with the Committee and the 
American Legion Post No. 22 to identify an alternate site within the 
over 9,300 acres of public lands in the area currently identified as 
suitable for disposal in the current land use plan.
    Second, the legislation directs the Secretary of the Interior to 
transfer the lands identified within 120 days. This requirement results 
in time concerns relative to the BLM's ability to fulfill certain 
requirements associated with the land conveyance, which include, among 
others, conducting a cadastral survey and performing hazardous 
substances and cultural resources clearances. This is in addition to 
the ability to fulfill requirements under the National Environmental 
Policy Act (NEPA). Selection of alternate lands that are currently 
identified for disposal in the land use plan could help alleviate the 
conflict created between the time limitation and the requirement to 
comply with applicable Federal laws, although more time may still be 
needed.
    Third, the Administration requests an addition to the reversionary 
clause to provide for the sale of these lands by the transferee, with 
the sale proceeds going to the Federal government, as an alternative to 
reversion. This would protect taxpayers from assuming potential 
liabilities that might arise by giving the Federal government 
discretion regarding the reversion.
    Finally, the BLM, as a matter of practice, receives fair market 
value for land being transferred out of public ownership. For 
conveyances to non-governmental entities that qualify under the 
Recreation and Public Purposes Act, the United States receives 50 
percent of fair market value. We would like to work with the Committee 
to address these concerns so that the necessary work can be completed 
and public notice and participation can occur.

                                S. 1826

    The BLM originally patented the lands referenced in S. 1826 to the 
Board of Regents of the University and Community College System of 
Nevada in 1972 and 1974. Subsequent legislation, Public Law 99-358, 
provided for the development of a research park on the conveyed lands. 
P.L. 99-358 restricts the Board of Regents' use of the patented lands 
to research and development activities. S. 1826 would provide the 
remaining right, title and interest of the United States in these lands 
to the Board of Regents, which would allow the University full 
discretion in the use or sale of these lands, with proceeds returned to 
the Secretary of the Interior.
    The Administration supports S. 1826, but requests technical 
corrections to add specificity to the conveyance, clarify ``market 
value,'' and modify the disposition of ``net proceeds'' in Section 
2(c)(2) of the bill as introduced.

                                S. 2085

    The Administration opposes S. 2085, which would amend Section 
702(b)(2) of Public Law 107-282, the ``Clark County Conservation of 
Public Land and Natural Resources Act of 2002''. Under the Clark County 
Act, 115 acres of land in Clark County, Nevada, that were conveyed to 
the Clark County Department of Aviation in the Southern Nevada Public 
Lands Management Act (SNPLMA), are identified as suitable for use by 
the University of Nevada at Las Vegas Research Foundation for the 
construction of a research park and technology center. The Clark County 
Act gives the Department of Aviation the discretion to convey without 
consideration the 115 acres identified for use by the Foundation. If 
the Foundation chooses to sell or lease portions of the 115 acres that 
it does not use for the research park, any proceeds follow the 
framework of Section 702(b)(2) of the Clark County Act, in that 85 
percent of these proceeds are to be deposited into a special account 
for conservation purposes, 5 percent of these proceeds are to be 
provided to the State of Nevada for education programs, and the 
remaining 10 percent of the proceeds are to be available for use by the 
Foundation. This framework was developed based on SNPLMA.
    S. 2085 amends the Clark County Act by allowing all proceeds from 
the sale or lease of lands conveyed to the Foundation to go directly to 
the Foundation. The Administration's decision to support the original 
Foundation provision in the Clark County Act was premised on the 
assumption that the Foundation would develop research facilities on the 
land, and that land not utilized by the Foundation for development of 
these facilities would be sold and the proceeds dispersed under the 
framework described above. SNPLMA and the Clark County Act were both 
carefully crafted to assure that land sales and the disbursement of the 
proceeds would meet the demand for community expansion, economic 
development, and the conservation of environmentally sensitive land.
    Under S. 2085, the lands conveyed to the Foundation would be 
available to be sold or leased by the Foundation for any purpose, 
whereas the original intent of the conveyance was to provide these 
lands for research purposes.
    In order to assure that the public interest is met, and to be 
consistent with the provisions in SNPLMA and the Clark County Act, we 
believe that the proceeds from any sale or lease of lands conveyed to 
the Foundation under the Clark County Act should be distributed as 
established in current law.
    We look forward to working with the Committee and local interests 
to address the concerns we have identified in S. 1521 and S. 1826. We 
hope the Committee will reconsider S. 2085 in light of the concerns we 
have raised in this testimony.
    Thank you for the opportunity to testify. I'll be happy to answer 
any questions

    Senator Craig. Well, Bob, we have just had a vote start, 
and I am going to try to get these other folks before us, 
because we have several votes in a row. I have a series of 
questions here, and I will submit them to you in writing. If 
you would respond to them specific to your concerns and the 
bureau's concerns. Of course, we will work with you and with 
the Senators involved to try to work out these differences 
prior to moving the legislation out of the committee. Thank you 
very much for your testimony. Appreciate it.
    With that, let me call forward our second panel, 
Commissioner Mark Whitney, Dr. John Gallagher, and Dr. Stephen 
Wells. I thank all of you for being here. Your full testimony 
will become a part of the record. We hope you can stay to our 
5-minute request.
    Commissioner, we will start with you. You have already been 
appropriately introduced by your senior Senator, and we 
appreciate that. But you are one of the commissioners from 
Beaver County, Utah. Welcome. Please proceed.

STATEMENT OF MARK WHITNEY, COUNTY COMMISSIONER, BEAVER COUNTY, 
                               UT

    Mr. Whitney. Well, thank you, Mr. Chairman, a very good 
afternoon. As you have said, I am Mark Whitney. I am a member 
of the Beaver County Commission and I am here to provide 
special comments on Minersville Reservoir conveyance, S. 2285.
    S. 2285 would convey approximately 200 acres of Bureau of 
Land Management property to Beaver County. These 200 acres are 
located in rural Utah on the shore of Minersville Reservoir 
between the communities of Beaver and Minersville.
    From 1963 to 2002, this property was managed by the State 
of Utah as the Minersville State Park under a lease with the 
BLM through the Recreation and Public Purposes Act. During this 
time, the State constructed campground facilities, a boat 
launch ramp, a park, a pavilion, an entrance station, and a 
maintenance building on the property.
    In April 2002, Beaver County was informed that the State of 
Utah would be closing the Minersville Park due to budget cuts. 
We were told the Minersville State Park was losing 
approximately $90,000 annually.
    Shortly thereafter, we convened discussions with the local 
BLM office to determine the options for the future of the 
property. The local BLM office staff told us that the existing 
facilities would be removed from the property and the property 
would have to be reclaimed back to its native condition unless 
another governmental entity took over the lease with the BLM. 
There are no other governmental entities other than Beaver 
County interested in managing the park.
    The park is very important to the residents of Beaver 
County. We do not want to see the park demolished. However, as 
with State, Beaver County with its limited resources and small 
tax base does not have the funds to subsidize the park 
indefinitely. We feel that in order for the county to be able 
to increase the usage of the park, to the point that it can 
generate its own revenue, we need more than a lease. We need to 
own the property. As we move forward with the park, we need the 
flexibility to develop the park in a manner that will increase 
its usage. S. 2285 would allow us this flexibility.
    For example, under S. 2285, the county would be allowed to 
develop certain lots in harmony with the surrounding 
environment which could be sold for vacation homes, a lodge, 
rental vacation cabins, et cetera. This would increase the 
usage of the park and also provide revenues that could only be 
used for maintenance and improvements at the park.
    I am confident that with S. 2285, the Minersville Reservoir 
will become successful without becoming a burden on the 
taxpayers of our county. I also feel that the reversion clause 
in the bill does an excellent job of assuring the United States 
the property will always be taken care of properly.
    I look forward to working with you further on this bill and 
would be happy to answer any questions at this point.
    Senator Craig. Commissioner, thank you very much. We will 
go to our other witnesses before we come back for questioning. 
Now let me turn to--well, we will stay in order--Dr. Wells, 
Stephen Wells, president, Desert Research Institute, Reno, 
Nevada.
    Dr. Wells.

 STATEMENT OF DR. STEPHEN G. WELLS, PRESIDENT, DESERT RESEARCH 
                      INSTITUTE, RENO, NV

    Dr. Wells. Good afternoon. For the record, my name is Steve 
Wells. I am president of the Desert Research Institute, which 
is the Nevada System of Higher Education's environmental 
research campus.
    Mr. Chairman and members of the subcommittee, I want to 
thank you for the opportunity to submit this testimony 
regarding S. 1826. As you know, S. 1826 was introduced on 
November 5, 2003 and directs the Secretary of the Interior to 
convey land in Washoe County, Nevada to the Board of Regents of 
the University and Community College System of Nevada.
    The University and Community College System of Nevada, 
which I will here refer to as the ``university,'' is the holder 
of two patents from the BLM for land located north of downtown 
Reno. A total of 467.3 acres was patented to the university 
pursuant to the Recreation and Public Purposes Act in 1972 and 
in 1974.
    The lands, known as the Dandini Research Park, are home to 
DRI's Northern Nevada campus and the campus of the Truckee 
Meadows Community College.
    The lands serve three primary purposes: housing scientific, 
academic, and research and development programs, all supporting 
economic and work force development within Nevada.
    Unfortunately, the university is limited by the terms of 
the patents in regards to the uses that are allowed on the 
property. First, the university may not use the lands as 
security in development transactions, and second, the land is 
subject to BLM's definition of research activities and 
services.
    Restrictions attached to the patents act as significant 
barriers to the university's ability to develop these lands in 
the best interests of the Nevada public and to operate a 
research park that provides a site for technology transfer, 
science-based economic development, and partnering among 
academic, governmental, and industrial sectors.
    In 1986, the university was successful in having 
legislation passed that allowed the university to lease 
property and buildings to the research park tenants.
    Yet, in 1999, the Department of the Interior's regional 
solicitor told the Nevada congressional delegation that while 
legislation is set aside, certain restrictions on the use of 
the patented lands mandated in the R&PP Act, the ability of the 
university to develop the research park is not unqualified. The 
solicitor indicated that any attempt to use the land as 
security or collateral for private financing of building 
construction would be considered a violation of the act because 
such an action would convey a potential ownership interest in 
the patented lands to a third party.
    This interpretation is seen by potential partners as a risk 
that significantly decreases the attractiveness of 
participating in a research park. Development of the research 
park and all of the public benefits that would result from its 
development are hindered by this constraint.
    DRI has two primary goals with respect to these lands: to 
expand its existing Northern Nevada Science Campus and to 
promote the development of the research park. However, these 
two goals are inhibited since both private developers and the 
university's legal council view the R&PP Act as an impediment 
to financing such development.
    In November 2003, Senators Reid and Ensign introduced S. 
1826, the legislation that directs the Secretary of the 
Interior to convey the 467.3 acres from BLM to the university 
system. It is important to note that the university would cover 
the costs of these transactions.
    On behalf of the institution, the research park's board, 
the DRI Research Foundation, and local economic development 
agencies, I strongly endorse this bill. It would allow DRI to 
realize the development of a research park. This is important 
to the citizens of Nevada who stand to benefit economically and 
socially by an expansion of the research enterprise. For this 
reason, I am here today to underscore how significant it is 
that this legislation be passed.
    Thank you again for this opportunity, and I will answer any 
questions.
    [The prepared statement of Dr. Wells follows:]

  Prepared Statement of Dr. Stephen G. Wells, on Behalf of the Desert 
                        Research Institute (DRI)

    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to submit this testimony regarding S. 1826. S. 1826 was 
introduced on November 5, 2003 and directs the Secretary of the 
Interior to convey land in Washoe County, Nevada, to the Board of 
Regents of the University and Community College System of Nevada.
    The University and Community College System of Nevada (``the 
University'') is the holder of two patents from the Department of 
Interior's Bureau of Land Management (BLM) for public land located 
north of downtown Reno. The land was patented to the University 
pursuant to the Recreation and Public Purposes Act (``R&PP Act''), with 
158.22 acres patented on July 17, 1972, and 309.11 acres patented on 
August 29, 1974 for a total of 467.33 acres. The lands, which ate now 
known as the Dandini Research Park, are currently being used by the 
Desert Research Institute (``DRI'') and by Truckee Meadows Community 
College. They house DRI's Northern Nevada Science Campus and they are 
the site of DRI's research park.
    The University is limited by the terms of the patents as to the 
uses to which it can put the property. Specifically, the patents, and 
the R&PP Act, require that the property be used only for ``public 
purposes,'' and state that the University may not ``transfer control'' 
of the property. Moreover, the patents require the University to file 
and follow a plan of development that must be approved by the BLM. The 
conditions that adhere to the patents are now acting as a significant 
barrier to the University's ability to manage and develop these lands 
in the best interests of the Nevada public, specifically to operate a 
University-sponsored research park that provides a site for technology 
transfer, science-based economic development, and partnering among the 
academic, governmental and industrial sectors.
    For example, the BLM initially disapproved of the development of 
the research park because it believed that leasing portions of the 
property to other entities would have constituted a transfer of 
control. However, in 1988, the University was successful in having 
legislation passed (P.L. 99-358) that allowed the University to lease 
property and buildings to research park tenants.
    Nonetheless, in 1999 the Department of the Interior's Regional 
Solicitor told the Nevada Congressional delegation that while P.L. 99-
358 set aside certain restrictions on the use of the patented lands 
mandated by the R&PP Act, the ability of the University to develop the 
research park is not unqualified. Specifically, the Solicitor indicated 
that ``any attempt to use the land as security or collateral for 
private financing of building construction . . .'' would be considered 
a violation of the Act because such an action would convey a potential 
ownership interest in the patented lands to a third party. This 
interpretation is seen by potential partners as a risk that 
significantly decreases the attractiveness of participating in a 
research park. Development of the research park and all of the public 
benefits that would accrue from its development are hindered by this 
constraint.
    DRI also wishes to expand its existing Northern Nevada Science 
Campus and is considering the use of an innovative means of financing 
the expansion by which a private developer would build and finance the 
expansion and lease it back to DRI. However the private developers with 
whom DRI has discussed the matter as well as DRI's counsel view the 
R&PP Act as an impediment to such an arrangement.
    In order to address these concerns, in November of 2003, Senators 
Reid and Ensign introduced S. 1826. This legislation directs that the 
Secretary of Interior convey the 467.33 acres from the BLM to the 
UCCSN. The University would cover the costs of the transaction. 
Obviously, I strongly endorse this bill, as it would allow DRI to begin 
to pursue its research park and to expand its own research facilities. 
These projects are important to the citizens of Nevada who stand to 
benefit economically and socially by an expansion of the research 
enterprise. For this reason, I am here today to underscore how critical 
it is that this legislation be passed.
    Once again, I appreciate the opportunity to appear before you 
today. Thank you for your consideration of this request. I would be 
happy to answer any questions you might have.

    Senator Craig. Doctor, thank you very much.
    Now let me turn to our last panelist, Dr. John Gallagher, 
vice president for development, executive director of UNLV's 
Foundation, University of Nevada, Las Vegas.
    Doctor, welcome to the committee.

   STATEMENT OF JOHN F. GALLAGHER, Ph.D., VICE PRESIDENT FOR 
DEVELOPMENT, UNIVERSITY OF NEVADA, AND EXECUTIVE DIRECTOR, UNLV 
                   FOUNDATION, LAS VEGAS, NV

    Dr. Gallagher. Thank you, Mr. Chairman. My name is John 
Gallagher. I am the vice president for development at the 
University of Nevada, Las Vegas, and in that capacity I am also 
the executive director of the UNLV Foundation. The UNLV 
Foundation is a nonprofit organization that raises and manages 
private funds, undertakes certain construction activity, 
undertakes some real estate activity, and provides a number of 
other services to the university. I am also today joined by my 
colleague, Tom Williams, who is here in the audience with us.
    I am here today to ask the committee to support the passage 
of S. 2085, the University of Nevada at Las Vegas Research 
Foundation Reinvestment Act.
    The University of Nevada, Las Vegas is a major research 
institution. In 2001, the university established the UNLV 
Research Foundation under the general organizational umbrella 
of the UNLV Foundation as a nonprofit affiliate of the 
university. The purpose of the research foundation is to 
encourage and support research activities at UNLV, to 
facilitate the creation of intellectual property, facilitate 
the commercialization of the products of research activity by 
UNLV faculty members, and support economic diversification in 
southern Nevada through research activities at UNLV.
    As a result of the enactment of the Clark County 
Conservation of Public Land and Natural Resources Act of 2002, 
115 acres of formerly public land in the Las Vegas Valley in 
the possession of Clark County's McCarran Airport was 
authorized to be conveyed to the UNLV Research Foundation for 
the creation of a research and technology park. The park, when 
completed, will be a location for basic and applied research, 
as well as a location for science and technology-based 
companies whose work supports the university's mission.
    The UNLV Research Foundation must attract private funding 
in order to develop the research park over time. It is not any 
kind of a misstatement to say that public money in Nevada is 
not going to be available for that kind of activity. In order 
to so, that is, in order to attract private funding, it must 
have the ability to secure mortgages in the commercial markets 
and return and utilize any proceeds from the lease of the 
property. In other words, the ability to lease the property to 
secure action through those leases with private commercial 
ventures provides the funding to build out the research park. 
This is a standard finance mechanism in the private sector. 
Such leases and related conveyances are the only available 
sources for the funds to accomplish the goals associated with 
the research park both for the university and for the 
community.
    The statute, as currently enacted, requires that the 
proceeds of any lease or sale or conveyance of this property go 
to entities unrelated to the purposes of the research park or 
of the university, and so it would defeat the entire intention 
of the original research park concept.
    Neither the university nor the research foundation 
envisions a time when we will sell this property. We understand 
that this property is an immensely valuable resource for the 
people of the State of Nevada. We do, however, need the ability 
to utilize the underlying value of the ground through the form 
of lease activity in order to finance the development of the 
research park.
    University-affiliated research parks are not new. There are 
well over 300 of them around the country. Parks located at 
major universities in California, for example, or the famous 
Research Triangle in North Carolina, or many others around the 
country provide examples of the way science and technology 
research parks can enhance the capabilities of a university and 
provide many benefits to communities. We believe that the UNLV 
research park will do all of these things. It will strengthen 
the economy in southern Nevada, lead to further economic 
diversification, particularly of high value jobs in the region, 
and provide for general business growth and expansion.
    Once again, we strongly urge the subcommittee to support 
the enactment of S. 2085 to allow the University of Nevada, Las 
Vegas to gain the full economic use of this land in order to 
develop the research park.
    Thank you for this opportunity to be here, and I too will 
be happy to answer questions.
    [The prepared statement of Dr. Gallagher follows:]

  Prepared Statement of John F. Gallagher, Ph.D., Vice President for 
              Development, University of Nevada, Las Vegas

    Mr. Chairman, members of the Committee, my name is John F. 
Gallagher, Vice President for Development at the University of Nevada, 
Las Vegas and the Executive Director of the UNLV Foundation. The UNLV 
Foundation is a nonprofit organization that raises and manages private 
funds, and undertakes certain construction and other projects, for the 
benefit of the University (UNLV). This work enhances the quality of the 
University and strengthens its mission of teaching, research, and 
public service. I am also joined today by my colleague, Thomas F. 
Williams, who serves as the Executive Director of the UNLV Research 
Foundation.
    I am here today to ask that the Committee support the passage of S. 
2085, the ``University of Nevada at Las Vegas Research Foundation 
Reinvestment Act''.
    The University of Nevada, Las Vegas is a major research 
institution, the only university-level educational and research entity 
in Southern Nevada. In 2001 the University established the UNLV 
Research Foundation under the general organizational umbrella of the 
UNLV Foundation as a nonprofit affiliate of the University of Nevada, 
Las Vegas.
    The purposes of the Research Foundation are to encourage and 
support research activities at UNLV; facilitate the creation of 
intellectual property; facilitate the commercialization of the products 
of research activity by UNLV faculty members, laboratories and 
programs; and support economic diversification in Southern Nevada 
through research at UNLV.
    As a result of the enactment of Clark County Conservation of Public 
Land and Natural Resources Act of 2002, (Public Law 107-282), 115 acres 
of formerly public land in the Las Vegas Valley, in the possession of 
Clark County's McCarran International Airport, was authorized to be 
conveyed to the UNLV Research Foundation for the creation of a research 
and technology Park. The Park, when completed, will be a location for 
basic and applied research, as well as a location for science and 
technology based companies whose work supports the University's 
mission.
    The Park will support additional UNLV research; enable public/
private collaborations; create technology jobs; and encourage economic 
diversification in Nevada. The businesses and organizations that locate 
in the Park will employ University students and provide internship 
opportunities. Park tenants may use University facilities, while 
University faculty and researchers likewise will join in the Park 
tenants' research and technology work.
    The UNLV Research Foundation must attract private funding in order 
to develop the Research Park over time, and must also provide an 
ongoing revenue stream to operate the Park. In order to do so, it must 
have the ability to secure mortgages in the commercial markets, and to 
retain and utilize any proceeds from the lease or conveyance of any of 
the property. Such leases and related conveyances are the only 
available sources for the funds to accomplish the University and 
community goals associated with the Park.
    The statute as currently enacted requires that 90% of the proceeds 
of any lease, sale or conveyance of this property go to entities 
unrelated to the purposes of the UNLV Research Foundation or the 
University. This provision makes it impossible for the Research 
Foundation or the University to raise the funds needed to develop the 
Park, provide funds to operate the Park, or return any of the long-term 
benefits of this activity back to the University and community.
    Neither the University nor the Research Foundation envision a time 
when the land will be sold. However, the ability to reinvest the full 
proceeds of any lease of the land will provide the funds to build the 
Park's infrastructure, science and technology buildings, and research 
incubators. This ability will also allow the University to structure a 
long-term revenue stream to support the activities at the Park.
    University Affiliated Research Parks are not a new phenomenon. 
Parks located adjacent to major universities in California, the famous 
Research Triangle in North Carolina, as well as Parks in many other 
parts of the country, provide examples of science and technology Parks 
that have contributed to major economic changes to the regions in which 
they are located. We believe a UNLV Park will also strengthen the 
economy of Southern Nevada and lead to further economic diversification 
in the region. The benefits to the community will include the creation 
of high-value jobs, business growth and expansion, improved 
opportunities for Nevada's workers, and less dependence on the region's 
primary tourist based industry.
    Once again, we strongly urge the Committee to support the enactment 
of S. 2085 to allow the University of Nevada, Las Vegas to gain the 
full economic use of this land to the benefit of the Las Vegas valley 
and the entire State of Nevada.
    Thank you for this opportunity. I would be happy to answer any 
questions the Committee may have.

    Senator Craig. Well, I thank you. I am going to set the 
committee in recess for a few moments, run over and vote and 
return.
    Bob, if you would stay. There may be some questions of you. 
I wanted to make sure that all of our witnesses who have 
traveled the distance you have are treated appropriately and 
properly before the committee, and there are several questions 
we will want to engage you in. So if you will stay for a few 
moments. There are two votes that I need to make. I am catching 
the tail end of one and the beginning of another, and I should 
be back in the next 5 to 10 minutes. Thank you.
    The subcommittee will stand in recess.
    [Recess.]
    Senator Craig. The subcommittee will reconvene. If we could 
ask the commissioner, the two doctors, and Bob to come to the 
table, we have got a few questions of you. It will be merciful 
and limited in character.
    Bob, let me talk, if I could, about Minersville State Park 
in Utah. You testified the BLM recommends eliminating the 
reversionary clause and the requirement for Beaver County to 
repay the United States for sales of land.
    Can you explain why and how this bill differs from other 
conveyances?
    Mr. Anderson. In S. 2285, we are doing away with the 
reversionary clause, as we would for Beaver County. Also, we 
testified here some weeks back about another site in Nevada. It 
was an R&PP, Recreation and Public Purpose Act, conveyance of a 
cemetery called Maiden's Grave. We recommended that the 
reversionary clause be deleted at that time because BLM did not 
want to be managing a cemetery if it reverted back to the 
United States. So there are a couple of examples.
    So every case is different, I think, in terms of R&PP 
conveyances, in looking at the reversionary clause and how it 
might impact us and the public. If it is in the interest of the 
public, we are going to take a hard look at it.
    Senator Craig. In S. 1521, has BLM had any discussions with 
the American Legion Post about its proposal to identify an 
alternate site? That would be the first question specific to 
that.
    Mr. Anderson. I understand that there have been discussions 
and I think the American Legion is pretty set on that 
particular tract of land. But we would like to continue to work 
with them to see if we cannot find something that might 
expedite this disposal on another piece of land that we have 
already designated as suitable for disposal.
    Senator Craig. If the post were to receive the land 
specified in the bill, would it result in a land pattern that 
is less manageable for BLM? Other than designated for disposal, 
is there any other objection to this piece of land?
    Mr. Anderson. No. It would not cause any disruption in 
management because the tract is bounded on one side by a 
highway. But we have had people on-site and our appraiser has 
characterized the site as having very high commercial value. 
Very high. So this is another reason that we might think 
another site might be more suitable.
    Senator Craig. We will take a look at that. If it is close 
to Nevada and it is available land or land that could be made 
available, my guess there is a high value to it based on the 
character of what is going on out there.
    Both S. 1826 and S. 2085 provide Nevada universities 
authority to sell certain lands previously conveyed. One of the 
bills you support and one of the bills you oppose. Can you 
explain why?
    Mr. Anderson. Well, S. 1826, of course you heard the 
testimony there. There the regents may dispose or lease the 
lands, but those proceeds would come back to the Secretary.
    In the other case, S. 2085, they would not. They would stay 
with the foundation. Right now, if the lands are conveyed by 
the county board for aviation to the foundation, the foundation 
would, in fact, be able to keep 10 percent of the proceeds. 
Under this bill, they would be able to keep 100 percent, and 
those lands have very high values.
    Senator Craig. Well, I have several other questions that we 
will send to you and ask for your response in writing. But 
thank you. I appreciate that.
    Let me turn to you, Mark. Can you briefly describe how you 
see the county managing the site if the bill passes?
    Mr. Whitney. Well, currently at this point, Beaver County 
does not manage any recreational sites. It is kind of a vision 
and it is a small area. Recreation has become very important 
and growing out there, especially desert type of recreation, 
trails, for example, and it is kind of the vision of the 
current county commission to take a lead on that to enhance 
because we realize we have got a special niche on that and we 
feel like we can do a good job at doing that.
    Senator Craig. I am looking at those properties right now, 
the aerial view that you provided us.
    Does Beaver County operate other parks? This would be a new 
venture.
    Mr. Whitney. As I said, no, it is a new venture that we 
feel like we need to get involved in for the citizens of our 
county.
    Senator Craig. And how would it affect the county's 
approach if the reversionary clause were removed as proposed by 
BLM?
    Mr. Whitney. And that is an important component to that 
because we need to be able to sell portions of that ground off 
to concessionaires, for example. The State of Utah does not 
allow concessionaires on their State parks, and we feel like 
that that park right there demands the need for certain 
concessionaires to draw people into it, and by doing so, that 
is what we plan on doing.
    Senator Craig. Well, thank you very much for your 
testimony.
    Mr. Whitney. Thank you.
    Senator Craig. Dr. Wells, in your testimony you spoke to 
the fact that the university has already had a piece of 
legislation passed, with the intent of solving the problem. Are 
you confident that we now have legislation that will provide 
the university with what it needs to manage and develop these 
lands?
    Dr. Wells. Yes, Chairman Craig, but I do need to clarify 
one point based on the administrator's testimony that our 
reference of net proceeds refers to the sale of the land and 
not the lease of the land. So I wanted that clarified. The 
leasing, just as it is with UNLV, is critical to us to be able 
to have that for an opportunity for reinvestment. It was the 
sales of the land that we were talking about in the act.
    Senator Craig. And, Bob, is that understood with BLM?
    Mr. Anderson. Let me take a look at that. OK, yes, that is 
true. It is the sale.
    Senator Craig. Dr. Wells, the administration testified it 
would like to clarify market value and modify the disposition 
of the net proceeds. Does the university see any problem with 
the changes proposed by BLM?
    Dr. Wells. No. I think we could answer those very clearly.
    Senator Craig. Dr. Gallagher, the administration testified 
that it opposed this concept when it was proposed in the Clark 
County bill passed in 2002. Why was this not resolved in 2002 
and why do you feel it can be now?
    Dr. Gallagher. The language in the 2002 bill, Mr. Chairman, 
was something of a surprise to us. The limitations on the 
property had not been discussed with us or with the staff in 
Washington that we were dealing with. Had they been apparent to 
us at that time, we would have made every effort to resolve 
them at that time. But because they are in the form that they 
are in, we have been working approximately the last year and a 
half to bring forward an alternative that would allow us to do 
at the park what we thought we were being allowed to do 
initially.
    Senator Craig. I think Bob referred a moment ago to values. 
The BLM now estimates the value of this 115 acres to be about 
$26 million, which would be quite a windfall for the research 
foundation. Although you indicate the foundation has no plan to 
sell the land, how would the foundation use the land to raise 
funds?
    Dr. Gallagher. A standard mechanism in the commercial 
markets is to ask a developer to bring what amounts to a down 
payment to the table. Often, for commercial developers, that 
down payment is the underlying value of the land. That land 
needs to available for lease in order for that mechanism to 
work. Under a circumstance like this, we would lease that 
ground to a third party, who would be one of our partners on 
the park. That third party would then bring to the table the 
rest of the funding to allow on-site development, off-site 
development, and the construction of facilities. Without the 
ability to lease that underlying ground, that mechanism does 
not work.
    This is particularly attractive to the university because 
as the owner of the underlying ground, as soon as the facility 
is completed, under Nevada law, it becomes our facility, and 
the tenant then continues to occupy the facility that, after 
all, they have built with their own money as our tenant. But 
after the end of that lease, not just the land reverts to us, 
but the facility also reverts to us. So it is, from our point 
of view, a terrific mechanism by which to develop a park such 
as this.
    Senator Craig. And you cannot leverage at this time based 
on the current law. That is the problem.
    Dr. Gallagher. Correct. That is the problem.
    Senator Craig. Are there significant guarantees to ensure 
these lands only support research and funds would not be 
siphoned for other purposes?
    Dr. Gallagher. We would certainly not be opposed to 
language of that sort in the statute. It is clearly our 
intention, everything that we have ever written about this, 
every conversation we have ever had, and in fact, the entire 
purpose of the creation of the research park was to develop 
that entire 115 acres as a research entity and not to sell any 
of the property for other purposes. So everything that would 
happen out there, by the very conception of the enterprise, is 
to make it a research focused activity.
    Senator Craig. Do you know of any other university research 
parks where public lands was used for these purposes, or were 
they all private properties?
    Dr. Gallagher. Several of the pieces in the University of 
North Carolina Research Triangle activities in that State were 
public/private partnerships. I do not know the specific manner 
in which those lands were assembled, however. I know that at 
any number of research parks around the country, State-owned 
property, not necessarily federally owned property, was used 
for these kind of purposes. It would not surprise me, quite 
frankly, sir, to know that they have been utilized in that 
fashion. I simply do not know of any cases.
    Senator Craig. Well, gentlemen, thank you very much for 
being willing to stay and respond to those questions. I do 
appreciate it. We will move as expeditiously as we can on these 
pieces of legislation, working cooperatively with all of you 
and, of course, BLM as we try to resolve some of these 
differences. I view them as relatively minor. At the same time, 
we are dealing with some high-value properties here and 
recognize that value as it relates to properties of the United 
States.
    I am from a landlocked State myself and I also appreciate 
the frustrations that we go to in States like Idaho and Utah 
and Nevada when we are surrounded by Federal properties that 
limit our ability to do certain things.
    Thank you all very much, and the subcommittee will stand 
adjourned.
    [Whereupon, at 3:37 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

          United States Department of the Interior,
                                   Office of the Secretary,
                                     Washington, DC, July 26, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Bureau of 
Land Management to questions submitted following the May 5, 2004, 
hearing on H.R. 1658, S. 2285, S. 1521, S. 1826, and S. 2085.
    Thank you for the opportunity to provide this material for the 
record.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel,
                   Office of Congressional and Legislative Affairs.
[Enclosure.]
                      Questions From Senator Craig
    Question 1. Can you give us estimated land values for the various 
bills being discussed today?
    Answer.

                                 ESTIMATED LAND VALUES FOR PROPOSED CONVEYANCES
----------------------------------------------------------------------------------------------------------------
                                                                                                        Total
                    Bill                                Location               Acres     Estimated    Estimated
                                                                                         Cost/Acre       Cost
----------------------------------------------------------------------------------------------------------------
S. 2285--Beaver County.....................  Beaver County, UT.............  \1\200            $500     $100,000
S. 1521--American Legion Post No. 22.......  Pahrump, NV...................       4.5   $174,000-$2  $766,656-$1
                                                                                             60,000     ,149,984
S. 1826--Dandini Research Park.............  Washoe County, NV.............     467        $100,000  $46,700,000
S. 2085--UNLV Research Foundation..........  Clark County, NV..............     115        $230,000  $26,450,000
----------------------------------------------------------------------------------------------------------------
\1\ Land not in Federal ownership

    Question 2. Concerning the Minersville State Park in Utah, you 
testified that BLM recommends eliminating the reversionary clause and 
the requirement for Beaver County to repay the United States from sales 
of the land. Can you explain why and how this bill differs from other 
conveyances?
    Answer. The lands we are discussing were conveyed by patent to the 
county and subsequently the state over 40 years ago. The BLM does not 
own these lands and its only interest is in the current reversionary 
clause and subsurface estate (there is no mineral potential in this 
area). Our best estimate for land values in this area is less than $500 
an acre. Given these facts and the continuing use of this area as a 
state park, it seems reasonable to work cooperatively with the local 
community to find a creative solution to managing the future of this 
local park. By allowing Beaver County to maintain proceeds from sales, 
there is the possibility of a revenue flow, albeit small, which would 
allow the county to maintain the park. A reversionary clause could 
reduce the incentive for the county to take possession of the park, and 
BLM is ill prepared to take responsibility for managing a small local 
park such as this should the land revert to federal ownership.
    Question 3. On S. 1521, has BLM had any discussion with the 
American Legion Post about its proposal to identify an alternate site? 
If the Post were to receive the land proposed, would it result in a 
land pattern that is less manageable for the BLM?
    Answer. The BLM Las Vegas Field Office has had several meetings 
with the American Legion Post to discuss possible alternatives to their 
proposal. The BLM would prefer to convey land identified for disposal 
in its land use plan, and we have worked closely with the American 
Legion in identifying an alternative site. We do not believe that the 
proposed conveyance will result in a land pattern that is less 
manageable for the BLM since the proposed property is an isolated tract 
of public land bordered on two sides by private land and by state route 
160 on a third side. However, to complete the proposed conveyance, the 
BLM would require additional time to complete appropriate surveys, NEPA 
analysis, and clearances under other pertinent laws. We look forward to 
continuing to work with the American Legion Post to identify a suitable 
alternative site.
    Question 4. Both S. 1826 and S. 2085 provide the Nevada 
University's authority to sell certain lands previously conveyed. One 
bill you support and one bill you oppose. Can you explain?
    Answer. S. 1826 maintains previous provisions that if the Board of 
Regents for the University sells any portion of the land that has been 
conveyed, the net proceeds will be paid to the Secretary of the 
Interior for use by the BLM in Nevada. The provision related to the 
sale of the conveyed land is distinctly different than the provision in 
S. 2085, which would provide the University Research Foundation with 
all proceeds from the sale of the federal lands in question. The lands 
considered in S. 2085 also fall within the larger framework of the 
Southern Nevada Public Lands Management Act, which established public 
policy comprehensively on the distribution of funds from public land 
sales in Clark County. The Southern Nevada Lands Management Act and the 
Clark County Act were carefully crafted to assure that land sales and 
the disbursement of the proceeds would meet the demands for community 
growth, economic development and the conservation of environmentally 
sensitive lands in Clark County and elsewhere in Nevada.
    Question 5. In S. 1826, you stated BLM would like to make 
``technical corrections'' to clarify the ``market value'' and modify 
the disposition of ``net proceeds.'' Can you explain what is needed to 
clarify this language?
    Answer. The BLM suggests that the following technical corrections 
be made to S. 1826 to add specificity to the conveyance and to ensure 
that the Federal government is appropriately compensated for any public 
lands conveyed by the Board of Regents. The technical corrections are 
in italic:

          Sec. 2(a)(1) ``The Secretary shall convey to the Board of 
        Regents, without consideration all remaining right, title and 
        interest of the United States in and to the approximately 467 
        acres of land located in Washoe County, Nevada, formerly 
        patented to the Board of Regents . . . .''
          Sec. 2(c)(1) ``the amount of consideration for the sale shall 
        reflect fair market value, at the time of sale, as determined 
        by an appraisal; and
          Sec. 2(c)(2) ``the Board of Regents shall pay to the 
        Secretary an amount equal to the net proceeds, remaining after 
        reimbursement of associated conveyance costs of the sale, to be 
        deposited in a special account in the Treasury of the United 
        States to be made available for use by the Director of the 
        Bureau of Land Management in the State of Nevada, without 
        further appropriation.''

    Question 6. You testified the Administration opposes S. 2085. 
Doesn't this bill in essence provide additional lands to what has 
already been provided for land grant schools in Nevada?
    Answer. No. S. 2085 does not provide additional lands to what has 
already been provided for land grant schools in Nevada. These lands 
were conveyed to the Department of Aviation under the Southern Nevada 
Public Lands Management Act. The Clark County Act subsequently provided 
for the conveyance of 115 acres of these lands from the Department of 
Aviation to the University of Nevada at Las Vegas Research Foundation. 
S. 2085 amends the Clark County Act by allowing all proceeds from the 
sale or lease of lands conveyed to the UNLV Research Foundation to go 
directly to the Foundation, rather than distributed under the framework 
established in the Clark County Act.
    Question 7. Do you see a workable alternative to the approach 
proposed in the bill?
    Answer. The Administration opposes S. 2085. Both the Southern 
Nevada Lands Management Act and the Clark County Act were carefully 
crafted to assure that land sales and the disbursement of the proceeds 
would meet the demands of community growth, economic development and 
the conservation of environmentally sensitive lands in Clark County and 
elsewhere in Nevada. The decisions concerning the expenditure of the 
proceeds realized from sales of land under those laws are developed 
through a process that includes considerable public involvement. S. 
2085 instead earmarks a significant portion of these receipts for a 
single entity. This is contrary to the public process provided for in 
SNPLMA, which allows for a balancing of priorities among many competing 
interests.
    Question 8. My colleagues from Alaska have tried for several years 
to have BLM lands conveyed to expand Alaska's land grant school land 
base. I'm sure I can find lands in Idaho that well serve the same 
purpose. Why has this administration and previous administrations been 
unwilling to support expanding land grants?
    Answer. The BLM is not categorically unwilling to support expanding 
land grants. Individual proposals are weighed on their own merits and 
determinations are made on associated benefits to local communities, 
residents and a multitude of other factors. The BLM will continue to 
work closely with local communities and the Congress on future 
proposals.
                                 ______
                                 
                         Desert Research Institute,
                                   Office of the President,
                                           Reno, NV, July 28, 2004.
Hon. Larry E. Craig,
Subcommittee Chairman, Committee on Energy and Natural Resources, U.S. 
        Senate, Washington, DC.
    Dear Senator Craig: We are pleased to offer the following responses 
to the list of questions regarding S. 1826 forwarded in your 
correspondence dated June 25, 2004.
    Question 1. In your testimony you spoke to the fact that the 
University has already had one piece of legislation passed with the 
intent of solving this problem. Are you confident that now we have 
legislation that will provide the University what it needs to manage 
and develop these lands?
    Answer. We are confident that the legislation, as introduced, will 
allow the University to manage, develop and lease the subject land 
parcels.
    Question 2. The Administration testified it would like to clarify 
``market value'' and modify the disposition of the ``net proceeds''. 
Does the University see any problems with the changes proposed by the 
BLM?
    Answer. We see no problem in concept, although we have not seen the 
language proposed by the Administration. Our understanding of ``market 
value'' is the appraised value at the time of sale. We understand that 
the disposition of the ``net proceeds'' means the return of the net 
proceeds from the sale of the land to the BLM for use in the State of 
Nevada.
    Thank you very much for this opportunity to comment and respond to 
these questions.
            Sincerely,
                                          Stephen G. Wells,
                                                         President.


</pre></body></html>
